UNITED STATES SUPREME COURT
SHERRI COHEN
Petitioner,
CERTIFICATE OF SERVICE
Docket No. 20-658

v.
EQUIFAX INFORMATION SERVCES LLC
and TRANSUNION LLC
Respondents.

I, Sherri Cohen, hereby certify under penalty of perjury that on
2021, I served a copy of the Petitioner's Reply Brief

January

by
I/ United States Mail
Federal Express
Overnight Mail
Facsimile
E-mail
Hand delivery
on the following parties:
Camille R. Nicodemus
Colin C. Poling
Schuckit & Associates, P.C.
4545 Northwestern Drive
Zionsville, IN 46077

Esther Slater McDonald
Seyfarth Shaw
1075 Peachtree Street, NE
Suite 2500
Atlanta, GA 30309-3962

Counsel for TransUnion LLC

Counsel for Equifax Info. LLC

Signature

8

